    U.S. Department of the Interior
    Office of Inspector General




                AUDIT REPORT


         THE ADOPT-A-HORSE PROGRAM,
         BUREAU OF LAND MANAGEMENT

                  REPORT NO. 98-I-419
                      APRIL 1998




i
                                                                       C-IN-BLM-004-96(C)


              United States Department                     of the Interior
                            OFFICE OF INSPEC’IOR GENERAL
                                  Washington.D.C.20240


                                                            APR 30 1998
Memorandum

To:        Director, Bureau of Land Management

From:      Robert J. Williams $&!ddd          LAc-n-l-u’
           Acting Inspector General

Subject:   Audit Report on the Adopt-A-Horse Program, Bureau of Land Management
           (No. 98-I-419)


This report presents the results of our audit of the Bureau of Land Management’s Adopt-A-
Horse Program, which is a part of the Wild Horse and Burro Program. This is the last of
three reports we are issuing on the Wild Horse and Burro Program. The first report,
“Expenditures Charged to the Wild Horse and Burro Program, Bureau of Land Management”
(No. 97-I-375), dated February 1997, determined whether expenditures charged to the
Program were used for Program purposes. The second report, “Management of Herd Levels,
Wild Horse and Burro Program, Bureau of Land Management” (No. 97-I-l 104), dated
August 1997, determined whether the Bureau was effectively managing the herd levels and
monitoring the health of wild horse and burro populations on public lands. (These two reports
are synopsized in the Prior Audit Coverage section of this report.)

The overall objective of this audit was to determine whether the Bureau of Land Management
was operating the Wild Horse and Burro Program in accordance with applicable laws and
regulations, including provisions that ensure that the animals receive adequate health care and
humane treatment. Specifically, at the request of the Acting Director of the Bureau of Land
Management, this audit focused on whether the Bureau complied with its policies and
procedures to ensure that excess wild horses and burros received humane care when they
were placed in the Adopt-A-Horse Program.

We determined that the three Bureau Program offices we reviewed were not adequately
screening prospective adopters, performing inspections of adopters’ facilities and adopted
animals, and issuing titles for eligible adopted animals. The Bureau of Land Management
Handbook H-4750-2, “Adoption of Wild Horses and Burros,” requires the Bureau to
determine whether prospective adopters are eligible to adopt animals and to perform
inspections of adopters’ facilities and adopted animals. In addition, the Public Rangelands
Improvement Act of 1978 authorizes the Bureau to convey title of the animals to adopters
who have provided humane treatment to their adopted animals for 1 year. However, Bureau
management did not perform oversight reviews to ensure that the procedures in the
Handbook were complied with or that other effective procedures were established by all
Program offices; Bureau management at the Jackson Office and, to a lesser degree, at the
other two offices we visited focused its efforts on placing excess animals into private care
instead of fully complying with existing procedures; and the Wild Horse and Burro
Information System did not contain adequate information on the eligibility of adopters and
was difficult to use. As a result, the Bureau had little assurance that the adopted animals
received humane care; some of the animals were mistreated; and titles for adopted animals
were not always issued, which adversely affected the Bureau’s accountability for these
animals and unnecessarily extended the Bureau’s legal responsibility for the animals.

We made five recommendations to the Bureau, which related to (1) conducting reviews of
Program offices to ensure that screening, inspection, and titling procedures were followed and
determining whether the procedures were ensuring that adopted animals received humane
care; (2) improving and modifying the Wild Horse and Burro Information System; (3)
increasing the number of compliance inspections performed and improving documentation
of the inspections; (4) establishing procedures to require that records of complaints received
and actions taken on animal abuse or exploitation be maintained; and (5) ensuring that titles
to animals are conveyed to adopters in a timely manner.

In the April 7, 1998, response (Appendix 5) from the Director, Bureau of Land Management,
the Bureau concurred with Recommendations 1, 2, 4, and 5 and concurred “in part” with
Recommendation 3. Based on the response, we consider Recommendation 5 resolved and
implemented and Recommendations 1, 2, 3, and 4 resolved but not implemented.
Accordingly, the unimplemented recommendations will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation.

Since the report’s recommendations are considered resolved, no further response to the Office
of Inspector General is required (see Appendix 6).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau of Land Management personnel in the conduct of our
audit.
                                       CONTENTS

                                                                                                      Page

INTRODUCTION         ................................................... 1

    BACKGROUND ................................................                                         1
    OBJECTIVE AND SCOPE ........................................                                       2
    PRIOR AUDIT COVERAGE .......................................                                       3
    OTHERREVIEW    ...............................................                                     .

FINDING AND RECOMMENDATIONS                       .      ...     . . . . . . . . . . . _. . _. . . . . 6

    ADOPT-A-HORSE PROGRAM                   ..... ...       . . . . . . . . . . . . . . . _. . . . . . 6

APPENDICES

   1. TOTAL BUREAU OF LAND MANAGEMENT WILD HORSES AND
        BURROS ADOPTED, TITLED, AND UNTITLED BY BUREAU
        STATE OFFICE OR FACILITY AS OF APRIL 1997 _ . . . . . . . .                              ..   17
   2. PROCEDURES FOR THE ADOPT-A-HORSE PROGRAM . . . . . . . .                                   .    18
   3. RESULTS OF ADOPTION FILES REVIEWED - CLASSIFIED
        BY BUREAU OFFICE AND TYPE OF PROBLEM . , . . . . . . . . , . .                          . , 20
   4. ADOPTED WILD HORSES AND BURROS ELIGIBLE FOR
       BUT UNTITLED BY STATE OFFICE . . . . . . . . . . . . . . . . . . , . .                   . . 21
   5. BUREAU OF LAND MANAGEMENT RESPONSE . . . . . . . , , . . , . .                            . . 22
   6. STATUS OF AUDIT RECOMMENDATIONS . , . . . . , . . . , . . . . , . . .                     . . 27
                                         INTRODUCTION

BACKGROUND

The Wdd Free-Roaming Horses and Burros Act of 1971, as amended, authorized and directed
the Secretary of the Interior to manage the wild free-roaming horses and burros in a manner
designed to achieve and maintain a thriving natural ecological balance and protect wild free-
roaming horses and burros as components of the public lands. The Act gives the Secretary
authority to humanely capture and remove from the public lands excess wild free-roaming
horses and burros for private care and maintenance for which the Secretary has determined
an adoption demand exists. The Act defines “excess animals” as “wild free-roaming horses
or burros (1) which have been removed from an area by the Secretary pursuant to applicable
law or, (2) which must be removed from an area in order to preserve and maintain a thriving
natural ecological balance and multiple-use relationship in that area.”

The Wild Horse and Burro Program was established in 197 1 to administer provisions of the
Act. The Bureau manages wild horse and burro populations that exist in 10 western states:
Arizona, California, Colorado, Idaho, Montana, Nevada, New Mexico, Oregon, Utah, and
Wyoming.       As of September 1996, the Bureau estimated that these lands had a total
population of 42,138 animals. The responsibility for the management direction and policy
making of the Wild Horse and Burro Program was reassigned in January 1997 from the
National Program Office in Reno, Nevada, to the Bureau of Land Management Headquarters
in Washington, D.C., but the operational aspects of the Program remained at the National
Program Office. Adoption program offices are located in Bureau state, district, and resource
area offices in Arizona, California, Colorado, Idaho, Montana, Nevada, Oklahoma, Oregon,
Utah, Mississippi, Wisconsin and Wyoming to supervise adoptions throughout the
continental United States. The Bureau also conducts adoptions at prison training programs
in California, Colorado, Oklahoma, and Wyoming.

A primary focus of the Bureau’s activities under the Wild Horse and Burro Program has been
the placement of excess wild horses and burros from public lands to private individuals and
organizations through the Bureau’s Adopt-A-Horse Program. After 1 year of demonstrating
humane care to the animal and upon application by the adopter, the Bureau is authorized to
issue title to the adopter for up to four animals each year.’ Once title has passed to the
adopter, the Bureau is no longer legally responsible for the animal. As of April 1997, 15 1,8 14
animals had been placed in private care through the Adopt-A-Horse Program since its
inception in May 1976. Of the 15 1,8 14 animals adopted, the Bureau had passed title to the
adopters for 103,138 of these animals (see Appendix 1).




‘When the Bureau’s Adopt-A-Horse Program was first established in 1976 (actually, the first adoption took place
in 1973 in Montana), there were no provisions to pass title for the animals to the adopters. The provisions to issue
titles to adopters were included in the Public Rangelands Improvement Act of 1978.
The Bureau of Land Management Manual Handbook H-4750-2, “Adoption of Wild Horses
and Burros,” provides detailed information on the policies, standards, and procedures to be
used in the Adopt-A-Horse Program. The Handbook provides the detailed procedures the
Bureau established to implement Subpart 4750, “Private Maintenance,” of the Code of
Federal Regulations.     Specifically, the Handbook describes adopter qualifications and
application procedures and provides guidance for Bureau compliance inspections and
enforcement activities. Further, the Handbook requires an applicant who has selected an
animal for adoption to sign a private maintenance and care agreement that identifies
prohibited acts and stipulates requirements for the adopter’s facilities and for care of the
animals (a narrative description of the procedures for animal adoption is in Appendix 2).

OBJECTIVE AND SCOPE

The audit objective was to determine whether the Bureau of Land Management was
operating the Wild Horse and Burro Program in accordance with applicable laws and
regulations, including provisions that ensure that the animals receive adequate health care
and humane treatment. Specifically, this audit focused on whether the Bureau complied
with its policies and procedures to ensure that excess wild horses and burros received
humane care when they were placed in the Adopt-A-Horse Program.

To accomplish our objective, we made site visits to three Bureau offices: (1) the Canon City
District Office in Canon City, Colorado, which administers the Program for the Colorado
State Office; (2) the Jackson District Office in Jackson, Mississippi, one of two district offices
that administer the Program for the Eastern States Office; and (3) the Oklahoma Resource
Area Office in Moore, Oklahoma, which administers the Program for the New Mexico State
OIlice.* As of April 1997, these three of&es were responsible for 48,140 (32 percent) of the
 151,8 14 animals adopted in the Program since its inception. In addition, these offices were
responsible for 13,911 (42 percent) of the 32,794 untitled animals eligible for title as of April
1997 (see Appendix 1).

The three offices reviewed provided us with 130 of the 167 adopter files we judgmentally
sampled. According to Bureau officials, the remaining 37 files were either lost or sent to
archives. At the three offices visited, we reviewed the 130 adoption files representing
animals titled during fiscal years 1995, 1996, and 1997 through April 18, 1997 (58 files);
animals eligible for title as of April 18, 1997 (39 files); adopters or facilities that had five or
more wild horses and burros from 1973 through April 18, 1997 (15 files); adopters whose
names were in the complaint logs at the time of our visits (9 files); and adopters who used
power of attorney to adopt wild horses and burros during 1995 through April 18, 1997 (9


rlhe Canon City District 05ce is respqnsible for the State of Colorado; the Jackson District Office is responsible
for Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, North Carolina, South Carolina,
Tennessee, and Virginia; and the Oklahoma Resource Of&e is responsible for Kansas, New Mexico, Oklahoma,
and Texas.

                                                        2
6les).3 Our sample selection of adoption files was based on data maintained in the Wild Horse
and Burro Information System, which identified the Bureauwide universe as 103,138 titled
animals and 32,794 eligible but untitled animals as of April 18, 1997.

At each of these offices, we reviewed the Bureau’s compliance with policies and procedures
in its Handbook that related to screening adopters, performing compliance inspections,
investigating complaints of abuse and exploitation, and titling animals and interviewed Bureau
officials responsible for operating and managing the Program. In addition, we observed wild
horse and burro adoptions at the Colorado State Penitentiary in Canon City, Colorado; the
Cross Plains Adoption Center in Cross Plains, Tennessee; and a temporary adoption center
in Hemdon, Virginia.

This audit was made, as applicable, in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included such tests
of records and other auditing procedures that were considered necessary under the
circumstances.

As part of our audit, we evaluated the system of internal controls to the extent that we
considered necessary. The internal control weaknesses we identified are discussed in the
Finding and Recommendations section of this report. The recommendations, if implemented,
should improve the internal controls in these areas.

We also    reviewed the Departmental Report on Accountability for fiscal year 1996, which
includes   information required by the Federal Managers’ Financial Integrity Act, and the
Bureau’s    annual assurance statement and determined that no material weaknesses were
reported   that directly related to the objective and scope of our audit.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not audited the Bureau of Land
Management’s Wild Horse and Burro Program. However, the Office of Inspector General
has issued four audit reports on the Program as follows:

       - The report “Memorandum of Understanding Relating to the South Dakota Wild Horse
Sanctuary, Bureau of Land Management” (No. 92-I-543), issued in March 1992, concluded
that the Bureau made payments of $95,000 for services that were not the Bureau’s
responsibility, approved a basic rate increase for horse care that was not justified, and lost the
opportunity to save $800,000 by not evaluating alternative offers for horse care. The report
additionally stated that the sanctuary had not achieved financial self-sufficiency. The report’s
four recommendations were considered resolved and implemented.



‘A power of attorney is a legal instrument authorizing one to act as the attorney or agent of the grantor.

                                                         3
      - The report “Selected Aspects of the Wild Horse and Burro Program, Bureau of Land
Management” (94-I-585) issued in May 1994, stated that it was not cost effective to maintain
the Oklahoma wild horse sanctuary. The report recommended that the Bureau evaluate other
options for the sanctuary horses, including returning the horses to the public lands and closing
the sanctuary, since most of the sanctuary horses were old and unadoptable. The Bureau
concurred with the recommendation but offered an alternative solution. Specifically, the
Bureau decided to develop and implement an adoption initiative for the animals in the
sanctuary, which had been successful in the Bureau’s Montana State Office in 1992 in that
over 500 sanctuary animals 6om South Dakota had been adopted. Subsequently, the Bureau
reduced the number of horses at the Oklahoma sanctuary from 1,569 in October 1993 to
 1,143 in February 1996. The sanctuary contractor reported that the reduction of 433 horses
was due to 236 adoptions and 197 deaths.

      - The report “Expenditures Charged to the Wild Horse and Burro Program, Bureau of
Land Management” (No. 97-I-375) issued in February 1997, concluded that the Bureau had
recorded and generally spent funds .for Program purposes in accordance with its accounting
procedures. However, the Bureau inaccurately classified certain indirect salaries and other
expenditures as direct costs in its financial records. As a result, reported salary and other
expenditures indicated that more direct work was accomplished for the Program than may
have actually occurred. The Bureau concurred with the report’s two recommendations,
which we considered resolved but not implemented.

       - The report “Management of Herd Levels, Wild Horse and Burro Program, Bureau of
Land Management” (No. 97-I-l 104), issued in August 1997, concluded that the Program had
not been effective in achieving the goal of managing the sizes of the herds to maintain a
thriving natural ecological balance, as required by the Wild Free-Roaming Horses and Burros
Act of 1971, as amended. In addition, the Bureau was not systematically monitoring the
health of the herds. Specifically, the Bureau had not placed sufficient numbers of animals
through its Adopt-A-Horse Program; was prevented from disposing of excess healthy
animals by legislative restrictions included in its appropriations acts; and had not aggressively
pursued other options for controlling herd sizes, such as birthrate controls. Consequently,
approximately 15,226 more wild horses and burros were on the range than the Bureau
determined the range could sustain at the end of fiscal year 1996. Additionally, the Bureau
did not have information regarding the health of the herds that managers needed to make
decisions regarding the operations of the Program. The Bureau concurred with the report’s
two recommendations,           but additional information was needed to consider the
recommendations fully resolved.

OTHER REVIEW

In January 1997, the Director, Bureau of Land Management, established a temporary Policy
Analysis Team to “review all aspects of the Bureau of Land Management’s (BLM) Wild
Horse and Burro (WH&B) Adoption Program.” The Team’s mission was to “analyze the


                                               4
current program and make recommendations for changes in policy and procedures to better
ensure that adopted animals receive short- and long-term humane care.”

On April 18, 1997, the Team issued its report, which contained 33 recommendations in six
categories: (1) compliance activities, including titling; (2) employee adoptions; (3) the Wild
Horse and Burro information System; (4) training; (5) public outreach; and (6) management
and accountability. The Team’s recommendations addressed a wide range of issues, including
day-to-day management of the Adopt-A-Horse Program, such as contacting 100 percent of
all new adopters; performing compliance inspections; and resolving long-standing problems
associated with accounting for untitled horses. Although the recommendations proposed by
the Team addressed a wide range of improvements needed in the Adopt-A-Horse Program,
we found that the proposed recommendations did not fully address the weaknesses we
identified, which are discussed in the Finding and Recommendations section of this report.
                     FINDING AND RECOMMENDATIONS

ADOPT-A-HORSE PROGRAM

 The three Bureau of Land Management Wild Horse and Burro Program offices we reviewed
were not adequately screening prospective adopters, performing compliance inspections of
 adopters’ facilities before adoptions’ and of animals subsequent to adoption, and issuing titles
for all eligible adopted animals. The Bureau of Land Management Handbook H-4750-2,
 “Adoption of Wild Horses and Burros,” requires the Bureau to (1) determine whether
prospective adopters are eligible to adopt animals and (2) perform inspections of adopters’
facilities and adopted animals. In addition, the Public Rangelands Improvement Act of 1978
requires the Bureau to convey title of the animals upon application by adopters who have
provided humane treatment to their adopted animals for 1 year. However, Bureau
management did not perform oversight reviews to ensure that procedures in the Handbook
were complied with or that other ‘effective procedures were established by all offices. In
addition, Bureau management at the Jackson District Office and, to a lesser degree, at the
other two offices we visited focused its efforts on placing the animals in private care instead
of ensuring compliance with existing procedures, and the Wild Horse and BUKO Information
System did not contain adequate information on the eligibility of adopters and was difficult
to use. As a result, the Bureau had little assurance that the adopted animals received humane
care, and some of the animals were mistreated. In addition, titles for adopted animals were
not always issued, which adversely affected the Bureau’s accountability for these animals and
continued the Bureau’s legal responsibility for the animals.

Screening Prospective Adopters

The Bureau did not adequately screen prospective adopters to determine their eligibility to
adopt and care for the animals. Specifically, the Bureau did not adequately review adoption
applications and Bureau adoption records, interview applicants, or perform inspections of the
facilities of applicants who applied to adopt five or more animals. These actions are the initial
safeguards to ensure that adopters have the capability to provide humane care for the adopted
animals.

      Applications and Interviews. The Bureau Handbook (Chapter I, Section B) identifies
three sources of information that Program personnel should use to screen applicants: a




‘The Bureau’s Handbook for adoption of wild horses and burros states that the Bureau must have a signed
inspection report tirn a Bureau official or other qualified individual such as a veterinarian or humane official that
certifies that the facilities for maintaining five or more animals satisfy Bureau requirements.

                                                          6
completed application; an interview with the applicant; and Bureau adoption records,
including records in the Information System. 5

In addition to the 37 files that were not provided, our review of the 130 adoption files
provided by the Bureau disclosed that 13 applications were incomplete or were missing from
the files (4 of the 13 applications had incomplete facility information) and that 72 files
contained no evidence that an interview was conducted (see Appendix 3). This occurred
because Bureau officials did not perform regularly scheduled oversight reviews of field offices
for compliance with Program procedures. We noted that only three reviews were performed
in I994 and one review in 1995 and that these reviews covered various aspects of the
Program in California, Montana, New Mexico, and Utah. However, these reviews did not
determine whether the field offices complied with established procedures to screen adopters
or to monitor adopters’ compliance with private maintenance and care agreements. In our
opinion, the Bureau should have included a requirement in its Handbook that regularly
scheduled reviews of compliance with Program procedures or other internal controls should
be performed to provide Bureau managers with sufficient information to make sound
management decisions regarding Program operations.

In addition, we found that the Wild Horse and BUKO Information System could not be used
to determine the eligibility of adopters, even though the Information System was identified
in the Handbook as a source to review. Program personnel stated that the Information
System computer program was not “user friendly” and that the compliance inspection module,
which was designed to contain information on inspections performed and the continued
eligibility of adopters, was so difficult to use that no one attempted to enter data about
problem adopters. Without this vital information, adopters who had improperly cared for
animals could be allowed to adopt other animals. For example, in 1990, a Colorado wild
horse specialist attempted to examine adopted animals that were eligible for title. The
specialist was informed by the adopter that the animals had been sold to a “local horse trader.”
Bureau law enforcement officials investigated the incident and determined that the adopter
had sold his four animals to another individual, who sold the animals to a “sale barnIl Since
the sale barn had closed, Bureau personnel concluded that the horses were not traceable. The
case was closed, and the adopter and the first purchaser were issued verbal warnings. The
official adoption file maintained at the field office was marked “ineligible.” However, as of
July 1997, the Information System listed the two animals as alive and untitled but eligible for
title, and the adopter was not identified as a “violator” or as ineligible to adopt other animals.
In addition, none of the three offices we reviewed maintained any other listing or document
that identified problem adopters which could be used as a screening source before


The Handbook states that when an adopter violates the terms of the private maintenance and care agreement, the
type of violation and the appropriate complaint and inspection results are required to be entered into the
Information System. This action will create a hold on future titling or adoption by that individual.

6A “sale barn” is any location where livestock is sold, including horses. According to a Bureau oftGal, it is
cxxnmonly known that buyers go to sale barns to acquire animals that will be processed into commercial products.

                                                       7
applications were approved. As a result, the Bureau could not be fully assured that animals
were placed with previous adopters who had demonstrated that they could care for their
animals.

      Preadoption Facility Inspections. Facility inspections are performed to help ensure
that prospective adopters of five or more animals in 1 year can adequately provide humane
care for those animals at their facility. The inspections are required by the Code of Federal
Regulations (43 CFR 4750.3-3), which states:

      An individual applying to adopt more than 4 wild horses or burros within a 12-
      month period, or an individual or group of individuals requesting to maintain more
      than 4 wild horses or burros at a single location shall provide a written report
      prepared by the authorized o5cer [a Bureau employee assigned to the Wild Horse
      and BUKO Program], or by a local humane official, veterinarian, cooperative
      extension agent, or similarly qualified person approved by the authorized officer,
      verifying that the applicant’s.facilities have been inspected, appear adequate to
      care for the number of animals requested, and satisfy the requirements . . . [for
      private maintenance and care of the animals].

      The report shall include a description of the facilities, including corral sizes,
      pasture size, and shelter, barn or stall dimensions, and shall note any discrepancies
      between the facilities inspected and representations made in the application form.
      When an applicant requests 25 or more animals or when 25 or more animals will
      be maintained at any single location, regardless of the number of applicants, the
      facilities . . . shall be inspected by the authorized officer prior to approving the
      application.

The codified requirements for adoptions of five or more animals in a year are more stringent
than the requirements for adoptions of four or fewer animals per year because of the increased
risk of animals being exploited or abused. Of the 37 files that Bureau officials could not
locate at the three o5ces visited, 16 of these files were for adoptions of five or more animals.
These 16 files represented adoptions of 868 wild horses and burros during 1976 through 1997
(March 1997).

We reviewed files for 15 adoptions of 5 or more wild horses and burros, which involved 355
animals, and found no evidence in these files that facility inspections had been performed by
Bureau o5cials or their authorized representatives in 2 of 3 cases in Canon City, 5 of 8 cases
in Jackson, and 2 of 4 cases in Oklahoma. The nine cases where facility inspections were not
performed accounted for 248 of the 355 animals. Examples of the problems noted with the
adoptions of five or more animals for which facility inspections were not performed are as
follows:
        - A state prison in Louisiana adopted 30 horses in October 1995. However, no
inspection was conducted by Bureau personnel from the Jackson District Office, as required
by the Code of Federal Regulations and further detailed in the Bureau Handbook. According
to officials in the Jackson Office, the inspection was not performed because the responsible
personnel were not notified by personnel fi-om the Rock Springs District 05ce in Wyoming
who conducted the adoption. When the facility was inspected by Jackson Office personnel
approximately 15 months after the adoption occurred, the personnel could not confirm that
the adopted animals were still at the prison because the freeze brands either were illegible or
were not present on the animals at the facility. Consequently, the Bureau could not issue
titles for the adopted animals. On June 10, 1997, Bureau personnel inspected the facility, re-
branded 28 of the horses, and signed private maintenance and care agreements for the 28
horses. The other 2 horses died, one on July 15, 1996, from unknown causes and the other
on November 22, 1996, from injuries incurred at a cattle guard. Under Bureau procedures,
the private maintenance and care agreements should have been signed before the horses were
adopted, and the deaths of the two horses should have been reported within 7 days of their
deaths.

      - During 1982 through 1985, a wild horse advocacy group in Colorado adopted 156
horses for the purpose of reassigning these animals to other adopters. When the animals were
assigned to other adopters, the group’s name was replaced with the new adopters’ names in
the Information System. Our review of the Information System showed that the group had
adopted only 10 horses rather than the 156 horses identified in the field office’s adoption file
for the group. In addition, there was no evidence in the file that the Bureau conducted
inspections of the group’s facilities prior to the adoptions.

According to Jackson District 05ce Program personnel, facility inspections were not
consistently performed because the Jackson field o5ce placed a higher emphasis on removal
of the animals from public lands and placement with private individuals and organizations.
Specifically, several employees in the Jackson 05ce stated that the Program’s priority had
always been the removal and placement of the animals over the monitoring of compliance
with Bureau procedures. In support of this position, we noted that the Wild Horse and BUKO
Adoption Program Policy Analysis Team Report, dated April 18, 1997, stated:

      The Policy Analysis Team believes that establishment and achievement of
      Appropriate Management Levels (AMLs) in Herd Management Areas (HMAs)
      is the highest overall Wild Horse and Burro priority. Efforts toward this objective
      should not be reduced to provide funding or staff time for implementation of our
      recommendations [regarding compliance and titling issues].

Further, during the June 24, 1997, exit conference on our prior report “Management of Herd
Levels, Wdd Horse and Burro Program, Bureau of Land Management” (No. 97-I- 1104), the
Bureau’s Assistant Director for Renewable Resources and Planning stated that to reach the
appropriate management levels by the year 2001 as the Bureau plans, it will need to remove


                                               9
10,000 animals from public land per year. However, he also stated that without enlisting
more volunteers to assist in monitoring and conducting compliance inspections, the Bureau
will have difficulty in meeting this goal.

Postadoption Compliance Inspections

The Bureau did not adequately or consistently perform compliance inspections    to ensure that
adopted animals were receiving proper care because the Bureau offices            we reviewed
emphasized the placement of the animals in private care over the performance    of inspections
of the adopters. In addition, Bureau offices had not established procedures     to ensure that
complaints of animal mistreatment were fully investigated.

The Code of Federal Regulations (43 CFR 4760.1) states that a Bureau employee or an
authorized representative may verify compliance with the private maintenance and care
agreement by “visits to an adopter, physical inspections of the animals, and inspections of the
facilities and conditions in which the animals are being maintained.” In addition, the Bureau
Manual (Section 4760.1) requires monthly compliance inspections of all adopters and animals
when five or more animals are maintained in one location. The Manual also requires the
Bureau to conduct compliance inspections whenever a complaint is received of inhumane
treatment to an animal. The Bureau’s “Strategic Plan for Management of Wild Horses and
Burros on Public Lands,” dated June 1992, states that the Bureau’s goal is to inspect a
minimum of 5 percent of all untitled animals each year.

      Inspection Goal of 5 Percent. We reviewed 97 files of adopters who took four or
fewer animals and determined that the Bureau conducted 39 compliance inspections of the
adopters and their animals. This inspection level of 40 percent exceeded the Bureau’s goal
of inspecting 5 percent of all untitled animals each year. However, while our nonstatistical
sample results indicated that the Bureau had exceeded its goal, we believe that the prescribed
and actual levels of inspections are too low to ensure that adopted animals are treated
humanely. Our opinion is consistent with the Bureau’s “Policy Analysis Team Report” on the
Program, dated April 18, 1997 (see “Other Review”section). Regarding the compliance
inspection level, the report recommended that the Bureau:

      Increase on-site compliance inspections to assure statistically that 95 percent of
      untitled animals adopted within the last five years are being properly cared for in
      compliance with the PMACA [private maintenance and care agreements] by
      adopters. . . . The 95-percent compliance clearly requires an increase in the
      current level of on-site compliance effort. .    The Team recommends doubling
      on-site compliance checks from approximately 2,200 per year to 4,400 per year,

The report further stated that the Bureau should use memoranda of understanding with
various state and nonprofit organizations to conduct these inspections. We agree with this



                                              10
strategy and believe that the Bureau can achieve the higher inspection level with the support
of voluntary organizations, such as the Humane Society of the United States.

      Monthly Inspections of Adopters of Five or More Animals. Our review of the 15
adoptions of 5 or more animals found that the Bureau did not conduct the required monthly
inspections for 14 adoptions involving 248 animals. For example:

        - In the Jackson District Office, none of the approximately 100 horses adopted in
numbers of five or more were inspected monthly by Bureau officials or their authorized
representatives. For example, in 1995 a university, through the Jackson Office, adopted five
burros and four horses to provide an outreach educational program. The Jackson Office did
not conduct the required monthly compliance inspections of the animals and the university’s
facilities. However, the Bureau did conduct an inspection on May 2, 1996, because Bureau
personnel were in the area to conduct an adoption. The Bureau horse and burro specialist
noted in her inspection report that one burro was missing and that the remaining animals were
“malnourished.” Subsequently, the specialist determined that one of the burros had died on
January 24, 1996, of “unknown causes” and that this death was not reported to the Bureau
as required. Also, the inspection report stated:

     The horses and burros . . . were in thin condition and their hoofs were extremely
     long. . . had only been wormed once . . . and had received little to no handling
     . . . . The ribs . , . were easily seen, the tail head was prominent, the hip bone was
     easily discernible and the withers, shoulders and neck were accentuated. Their
     coats were dull, long, and in an unhealthy condition. . . . The hay on site was of
     very poor quality . . . . When the hay was given to the horses, they would not eat
     it.

The report further stated, “The poor condition of the animals attested to the inadequate
amount and quality of grain and hay being fed to the animals. . . .I’ During a second
inspection on May 5, 1996, the Bureau specialist stated, “Again, there was no evidence of
feeding and the pens were without water.” As a result of these inspections, the university
received Bureau assistance in caring for the animals, and the condition of the animals
improved.

      - In the Canon City District Office, an adopter acquired 10 horses during fiscal years
1994 and 1995. The Bureau did not conduct monthly compliance inspections of the adopter
and the animals. Subsequently, we found that one horse had died (the cause of death was not
reported within the required 7 days), one was returned to the Bureau, and eight were titled
to the adopter.

      Inspections of Complaints of Animal Mistreatment. We could not determine, from
our review of the adoption files and other records at the field offices we visited, whether the
Bureau conducted inspections of adopters for which the Bureau had received complaints and


                                               11
allegations relating to the mistreatment of adopted animals. Additionally, allegations of abuse
were not always referred to law enforcement officials for appropriate action. For example:

       - In the Jackson Office, we requested six files relating to animals for which complaints
of abuse were received and recorded in the complaint logs. However, the Bureau could not
locate 4 of the tiles (included in the 37 files we previously noted as not provided). Regarding
the first of the remaining two files, the initial complaint of possible abuse was recorded on
March 5, 1996. As ofMay 13, 1997, the Bureau had not performed a compliance inspection.
Regarding the second of the two remaining files, the initial complaint, which was the reported
death of an animal, was received in August 1996. As of November 10, 1997, no further
action had been taken, even though the letter certiQing the cause of death that had been
requested in August 1996 had not been received.

Also in the Jackson Office, we reviewed an adoption file (see Appendix 3, “Evidence of
Possible Animal Abuse”) which stated that the adopter shot and killed his burro because it
was unmanageable and continued to escape from its pen. Since this action was a prohibited
act under the adopter’s private maintenance and care agreement, the case should have been
referred to law enforcement o5cials for appropriate action. However, no further action was
taken by the Bureau on this burro’s death, and the Bureau subsequently issued titles to this
adopter for the three burros remaining in his custody.

In the early 199Os, according to several Bureau employees, a former District Manager of the
Jackson 05ce stated that, pursuant to management directions, the Jackson Office would no
longer refer adopters for prosecution of wrongdoing. In addition, an October 9, 1990,
memorandum from the Deputy State Director in the New Mexico State Office stated that as
a result of budget reductions for fiscal year 1991, a wild horse and burro adoption center
would be closed and staff may not be able to respond to all compliance complaints. The
memorandum f%rther stated that complaints should be coordinated with investigations
conducted by local humane officials.

We were not able to determine whether the Bureau had taken all necessary actions regarding
complaints of animal mistreatment because it did not establish adequate procedures to ensure
that its adoption files and complaint logs clearly documented the dispositions of complaints.
Additionally, the Bureau did not ensure that a complete and accurate database of violators
of the private maintenance and care agreements was maintained in the Bureau’s Wild Horse
and BUKO Information System so that these individuals could be prevented from acquiring
animals through future adoptions.

Untitled Wild Horses and Burros

The Bureau had not ensured that adopted wild horses and burros were titled to adopters after
providing 1 year of humane care. The granting of title to the animal is the final step in the
adoption process, The Act states that the Bureau is authorized, upon application, to grant


                                              12
title to adopters who have provided humane treatment and care for their animals (up to four
animals in any 1 year) for a period of 1 year. By issuing title, Ml responsibility for the animal
is placed on the adopter, and the Bureau’s responsibility for that animal is legally terminated.
The Bureau’s Information System showed that 32,794 animals eligible for title were untitled
as of April 18, 1997. The large number of untitled animals was caused by (1) the Bureau’s
practice ofwaiting for the adopters to submit title applications to its field offices and (2) the
lack of effective followup procedures at some field offices.

The titling process begins when the Bureau’s Information System generates a title eligibility
letter and application form that is mailed by personnel in the National Business Center to
adopters within 2 months of the l-year anniversary of the adoption. However, we found that
the Bureau office administering the adoption did not normally take further action until it
received the completed title application. Upon receipt of the application, Program personnel
reviewed the application to ensure that the animal was certified as healthy by a “qualified
individual other than the adopter.“’ Ifthe Bureau determined that the animal was healthy, title
was issued, and the animal became. the private property of the adopter.

During October 1, 1992, to April 18, 1997, the number of animals eligible for title but untitled
increased by 5,419 animals, or approximately 16.5 percent of the total 32,794 untitled animals
(see Appendix 4). The Jackson 05 ce, which administers the Program in 11 states (compared
with 1 state and 4 states, respectively, administered by the two other offices we visited), has
been responsible since fiscal year 1992 for 1,799 (33.2 percent) of the 5,419 untitled animals
and 6,212 (18.9 percent) of the total of 32,794 untitled animals since Program inception.
Although the number of untitled animals was significant, we found that procedures were not
established at the Jackson Office to follow up on why title applications were not received
from eligible adopters. At the Canon City Office, we found that procedures had been
implemented to ensure that field inspections were scheduled. for those adopters who had not
submitted title applications in a timely manner (see section “Program Improvements”). As
a result, since fiscal year 1992, the Canon City Office has added only 47 animals to its
inventory of eligible but untitled animals, which totaled 596 animals for years prior to fiscal
year 1992.

We also noted that the Information System reported that 773 of 6,2 15 animals being held in
Bureau facilities as of April 18, 1997, were supposedly at facilities which were no longer in
operation. Further we noted that a separate “history file,” created by the Bureau in 1989 to
track animals that could not be located, reported an additional 2,557 animals (not included
in any other Bureau statistical totals) which the Bureau had not located as of April 18, 1997.




‘As described on the title eligibility letter, a “qualified individual” is a “veterinarian, extension agent, local humane
official, or other individual with knowledge about animal husbandry.”

                                                           13
Program Improvements

During our review, we noted several proactive actions that Bureau offices had taken, or
proposed to take, to ensure that animals received humane care and were not exploited for
commercial purposes, as described in the following paragraphs.

      Effective Inspection and Titling Practices. Both the Canon City District Office and
the Oklahoma Resource Area Office developed local procedures which helped ensure that
inspections were conducted and titles were issued. While the Canon City Office ensured that
the Information System data was kept current and utilized the titling dates provided by the
System, the Oklahoma 05ce manually reviewed adopter files to obtain current titling dates.

At the Canon City District Office, procedures included a wild horse and burro staff assistant’s
printing, from the Information System, a list of adopters who were eligible for title. From the
list, a wild horse and burro specialist identified those adopters who were due or overdue for
titling and matched their locations with the locations of volunteers available throughout the
State of Colorado. The specialist then contacted those volunteers and arranged for them to
perform compliance inspections of the animals. When a volunteer determined that an animal
had been properly cared for, the volunteer and the adopter prepared the application for title
and forwarded it to the Bureau. If any problems were noted during the inspection, a Bureau
employee would follow up with appropriate action. The Canon City Office maintained these
lists to also document the number of compliance inspections it conducted during each fiscal
year.

The Oklahoma Resource Area 05ce developed a system that requires an administrative
assistant to manually review adopter fles to determine when title eligibility dates have passed.
The files are marked with the title eligibility date on the file jacket. The administrative
assistant reviews the files every 2 to 3 months and pulls the files of adopters whose title
eligibility dates are more than 3 months past due. By that date, the adopter should have
received three letters from the National Business Center regarding title eligibility. The
assistant sends a certified letter to the adopter and continues to follow up until the adopter
responds with,a certified title application or other satisfactory response (such as a death
certificate).

        Slaughterhouse Agreements.          The New Mexico State 05ce entered into a
memorandum of understanding with a slaughterhouse whereby the facility’s officials would
voluntarily report to the Bureau freeze-branded animals (possibly wild horses) received at
their facility. Under the agreement, the Bureau would determine whether the freeze-branded
animals were wild horses and whether they were titled or untitled and, at Bureau expense,
pick up the untitled animals. If the Bureau could not remove the animals immediately, the
facility would care for the animals and charge the Bureau a nominal maintenance fee. Jackson
District Office Program personnel provided us with information that this facility, during
February 5, 1997, through March 13, 1997, not&d the Bureau that it had received 25 freeze-


                                               14
branded animals. The Bureau subsequently determined that four of the animals were untitled
and picked up the animals. Of the four animals, two were readopted, and two were still at
Bureau holding facilities as of June 24, 1997. The Bureau received restitution from one of
the adopters involved and is seeking restitution Corn another. We believe that the Bureau
should take all necessary actions to obtain these kinds of agreements with other
slaughterhouses.

       Volunteers and Partnerships. In written comments dated January 6, 1998, the
Director noted that the Jackson District Office will be holding another wild horse and burr0
preadoption compliance training course for volunteers. The Director stated, “[I]t is
anticipated that 10 to 15 people will take the course, providing the Jackson Office with
significant increased pre-adoption compliance capability. ” Additionally the Director noted,
“[A] signiscant partnership is being built with the Girl Scouts of central Florida where another
Mustang Troop is being formed. ”

Recommendations

We recommend that the Director, Bureau of Land Management, ensure that:

    1. Procedures are established to conduct regular oversight reviews of field offices to
determine whether screening, preadoption and postadoption inspections, and titling
procedures are complied with. The reviews should also determine whether the Bureau’s
screening and inspection procedures provide reasonable assurance that wild horses and burros
in the Adopt-A-Horse Program receive humane care.

    2. The Wild Horse and BUKO Information System contains information on violators of
wild horse and burro laws and regulations and other problem adopters to be used as a
screening tool when offices evaluate prospective adopters. Additionally, the Information
System should be evaluated and redesigned as appropriate to be more “user friendly” to
Program personnel.

   3, Revise the Bureau’s strategic plan for the management of wild horses and burros to
require a higher percentage of inspections to be performed, as recommended by the Bureau’s
“Policy Analysis Team Report.” Also, the number of inspections performed should be
accurately recorded in the Information System and reported to Bureau management.

    4. Procedures are established which require records to be maintained on the complaints
received of animal abuse or exploitation, the actions taken, and the final results of those
actions.

    5. Procedures are established to require all offices to contact adopters who have not
submitted title applications in a timely manner and to take appropriate followup actions to
issue titles. Further, consideration should be given to implementing, on a Bureauwide basis,

                                              15
other effective procedures and memoranda of understanding with slaughterhouses that have
been established at some offices.

Bureau of Land Management Response and Office of Inspector General
Reply
Jn the April 7, 1998, response (Appendix 5) to the draft report from the Director, Bureau of
Land Management, the Bureau concurred with Recommendations 1, 2, 4, and 5 and
concurred “in part” with Recommendation 3. Based on the response, we consider
Recommendation 5 resolved and implemented and Recommendations 1 through 4 resolved
but not implemented.

Regardii Recommendation 3, the Bureau stated that it had “adopted the recommendations
of the ‘Policy Analysis Team Report”’ to use “a statistical sampling approach as the best
means to ensure the health and humane treatment of 95 percent of animals adopted within the
past 5 years.” The Bureau stated it will “perform more than 3,629 compliance inspections in
FY [fiscal year] 1998, as identified in the BLM’s [Bureau’s] Annual Work Plan.” Further,
the Bureau stated that it will check (by telephone or physically) “100 percent of all new
adoptions within 6 months after adoption” and that it will contact by mail “all adopters for the
last 5 years who have animals eligible for title, but who have not yet titled those animals” in
an effort to “ensure the health and humane treatment of the adopted, but not yet titled,
animals.” Additionally, the Bureau stated that it will “[clontinue the policy of 100 percent
inspections on all complaints received.”

We believe that the Bureau’s proposed actions will satisfy the intent of this recommendation.
The number of compliance inspections that the Bureau intends to perform, including
inspections of ail complaints of abuse, and the proposed additional contacts with adopters,
whether by telephone or mail or by physical checks, should help to ensure that adopted
animals are receiving proper care.

Subsequent      to    the   Bureau’s   response,    Bureau    officials told us, regarding
Recommendation 3, that the sample of 3,629 compliance inspections was drawn in December
 1997 and that the telephonic or physical checks of 100 percent of all new adoptions within
6 months after the adoption occurs began in October 1997. Regarding Recommendation 4,
the o5cials said that the Compliance Handbook for Wild Horse and BUKOS will be finalized
by July 3 1, 1998. According to those officials, the Assistant Director for Renewable
Resources and Planning is the official responsible for implementation of all the
recommendations.




                                              16
                                                                                                   APPENDIX 1

 TOTAL BUREAU OF LAND MANAGEMENT WILD HORSES AND
   BURROS ADOPTED, TITLED, AND UNTITLED BY BUREAU
       STAl E OFFICE C a FACILITY \S OF APRII 1997
                           Total Number of                              Total Number of           Total Number of
                                                  Total Number of       Ado ted Animals          Ado ted Animals
      BUREAU                                     Adopted Animals for   EIigib;euztIe
                                                                             P       but         Not #e$y{fible for
    STATE OFFICE                                  Which Title Issued

        ALASKA                               0                    13                        53                      2

       ARIZONA                         3,504                   2233                        310                    151

     CALIFORNIA                       15,905                   9,016                     5,082                    557

     COLORADO                          4,598                   3,497                      643                     528


                                     48,743                   37,282                 10,950                   3,885

         IDAHO                         2,642                   3,368                     1274                     345

      MONTANA                          9,558                  14,386                     1,019                    540

    NEW Ibf!?xIco                     15,590                  16,003                     7,057                1,114
       NEVADA                         12,175                   2,790                       812                    189
       OREGON                         11,272                   5,430                     3,383                    470

         UTAH                          3,732                   2,991                      944                     571

      WYOMING                         13,819                   6,401                     1266                 1,018
   Washin on, D.C.,
          $
   Natioi;r,ryam
                                      10,158                       0                         0                      0

  Animals not assigned
   to specific location’                 105                       9                         0                      0

  AnimaIs not assigned
   to general location’                   13                       0                         0                      0

      Adjustment’                          n                   (281)                 1                        0

        TOTAL                      151.8145                 103.138                                          2all




‘Prior to August 1992, the National OfIice was administratively responsible for certain adoptions of animals.
Currently, only the state offices are listed as administrative offices for adoptions.

‘For the total number of animals adopted, we identified 105 animals on the Wild Horse and Burro Information
System that had no location code. For the total number of adopted animals for which title was issued, we identified
nine from the Information System that had no location code.

3h addition to the 105 animals that did not have a location code, 13 animals were identified only by a freeze brand.

‘A downward adjustment of 28 1 animals was required because of a discrepancy between the Information System
summary total and the detailed total derived from available tiles. An upward adjustment of 1 was required for the
adopted, eligible, and untitled animals.

‘The total does not compute across because this amount includes 6,499 animals that died after adoption and the
13 animals referred to in footnote 3.

                                                         17
                                                                                APPENDIX 2
                                                                                  Page 1 of 2



                            PROCEDURES FOR THE
                          ADOPT-A-HORSE PROGRAM

The following narrative details the procedures for the Adopt-A-Horse Program as stated in
Bureau of Land Management Handbook H-4750-2, “Adoption of Wild Horses and Burros.”

     Screening of Applicants. The Handbook requires that the prospective adopt& fill out
an application for adoption which may be accepted through the mail, on-site at holding
facilities or temporary adoption facilities, or at any Bureau office that has an authorized
Bureau officer. The application requires the applicant to sign a statement acknowledging that
it is a crime to make a fraudulent statement to the Government. The application also requires
the prospective adopter to describe the facilities that will be provided for the animals and to
state whether the adopter will have more than four untitled animals at the same location,
whether someone else will be selecting or caring for the animal under the adopter’s
authorization, whether the adopter has made any previous adoptions under the Program, and
whether the prospective adopter has ever been convicted of abuse or inhumane treatment of
animals. The Bureau then determines eligibility based on three sources: the completed
application; Bureau adoption records, including the Wild Horse and Burro Information
System; and an interview with the applicant.

When five or more animals are being adopted by one individual or maintained at one location,
special adoption screening requirements apply. These requirements include a facility
inspection and a signed statement of employment stating that the applicant is either not
employed by or engaged in a livestock auction, rodeo, or slaughterhouse or is employed or
engaged in the preceding, in which case the applicant is required to state in writing the
reasons for adopting the animals. The Bureau must approve or disapprove the application
within 10 days of receipt. If disapproval is based on an inadequate application, the applicant
may reapply. Also, the applicant may appeal his disapproved application to the Department’s
Board of Land Appeals.

Once the approved applicant has selected an animal at an adoption event, a private
maintenance and care agreement must be signed by the adopter and the $125 per wild horse
or wild burro adoption fee paid. At that time, Bureau personnel reiterate the terms of the
adoption and the prohibited acts to the adopter. After the adoption, the Bureau retains the
responsibility for ensuring that adopters comply with the private maintenance and care
agreements.    The responsible Bureau office is required to update the Information System
within 2 weeks of the adoption, and an official adopter file must be set up to include the
following: an approved application; a copy of the care agreement; and other relevant
documents, such as copies of compliance inspections and correspondence relating to the
adoption. In cases in which a power of attorney is used to select and pick up the animals, the
authorized o5ciaI must contact the adopter within 2 weeks after the adoption to ensure that


                                              18
                                                                                   APPENDIX 2
                                                                                     Page 2 of 2

the animals were received, to verify the location of the animals, and to review responsibilities
and obligations with the adopter. A written record is required to be maintained for all
contacts. Any adoption modification, such as adopter change of address or relocation of the
animals to other facilities, must be sent to the authorized officer within 30 days. The death
of any adopted animal must be reported to the responsible Bureau office within 7 days of the
death. If the adopter provides a veterinarian’s statement that the animal died or was
destroyed within 6 months of the adoption date because of a condition existing at the time of
adoption, the adopter is entitled to a replacement animal.

    Compliance and Enforcement. Bureau policy does not require routine inspections of
wild horses or burros adopted or maintained in groups of four or fewer animals. However,
the Bureau’s Wild Horse and Burro Strategic Plan establishes a goal to inspect a minimum
of 5 percent of all untitled animaIs. Both random and scheduled compliance checks are
encouraged. The Bureau Handbook does require that any adopter or facility/location which
has five or more untitled animals be inspected at least monthly or when there is a complaint.
Also, inspections are to be made during periods when weather conditions may adversely affect
animals’ feed, water, or shelter or if there is an outbreak of disease. Inspections may be
coordinated with adopters, law enforcement officials, and humane organizations as
appropriate. Results of inspections are to be discussed with the adopters and, as necessary,
documented through written communications. The adopters’ files are to contain records of
inspections, and the Wild Horse and Burro Information System is to be updated with the                1
dates and results of compliance inspections.

When a complaint of abuse or inhumane treatment is received, the Bureau is required to
investigate the complaint regardless of the number of animals involved. The Bureau will
recommend corrective action if appropriate. However, if the problems cannot or will not be
resolved by the adopter, the Bureau may repossess the animals. At that point, the adopter’s
private maintenance and care agreement may be terminated either voluntarily or involuntarily,
and the animal may be reassigned. In those cases of involuntary termination and repossession,
the Bureau’s law enforcement officials will be called in to assist.

    Titling of Animals. One year after the adoption date, the animal is eligible for titling to
the private adopter. Approximately 2 months prior to the end of the l-year period, a
notification for title letter is sent to the adopter. The Bureau sends out, from the National
Business Center, three notification letters just prior to and shortly after this 1-year period. The
letters require that a qualified individual, someone other than the adopter, certify that the
freeze-branded animal listed on the form has received proper care and is in good health. If
five or more animals are involved, an authorized Bureau official or designee must certify the
condition of the animals. However, by law, the Bureau may title only up to four animals per
year to an individual. Once title is issued, the Wild Horse and Burro Information System is
updated with a record of the titling date, and a copy of the title is placed in the adopter file.




                                                19
                                     RESULTS OF ADOPTION FILES REVIEWED -
                               CLASSIFIED BY BUREAU OFFICE AND TYPE OF PROBLEM

       NUMBER OF CASES REQUESTED                             JACKSON         CANON CITY         OKLAHOMA
             AND REVIEWED                                    DISTRICT         DISTRICT        RESOURCE AREA       TOTAL

Number of files selected for review.                            60               57                50              167

Number of tiles not provided by Bureau.                         (5)             (17)               (15)            (37)

Number of files reviewed.                                       is               4p                22              L9


               TYPE OF PROBLEM                           I                                                                I

Application incomplete or not in tile.                           1               5                  3               9

Facility information provided on application                     0               0                  4               4
incomplete.

No evidence that interview of applicant was                      18              23                31               72
conducted.

Private maintenance and care agreement incomplete or             1               2                  3               6
not in file.

No evidence of adoption fee payment or fee not paid in           1               9                  3               13
full with no iustication on file.                                        I                I                   I           I

Evidence of possible animal abuse.                               2               0                  0                2

Five or more untitled animals adopted or at one                  8               3                  4               15
location--problems include the absence of a facility
inspection, lack of monthly compliance inspections
until animals are titled. and no statement of
employment from adopter.
                                                                                          I                   I
                                                         I               I
Power of attorney - no followup to contact adopter.                  1            1                 0                2

Animals replaced without required veterinariau                   2               0                  0                2
certification (ah dying within I year following
adoption).
                                                         APPENDIX 4

            ADOPTED WILD HORSES AND BURROS
               ELIGIBLE FOR BUT UNTITLED
                     BY STATE OFFICE

   BUREAU         THROUGH         OCTOBER 1992        TOTAL AS OF
STATE OFFICE   SEPTEMBER 1991 I   TO APRIL 1997       APRIL l&l997


  ALASKA                    46                    7              53

  ARIZONA                  208                102               310

 CALIFORNIA              4,47 1              611              5,082

 COLORADO                  596                 47               643

  EASTERN
   STATES                8,126              2,825            10,951

   IDAHO                 1,128                146             1,274

 MONTANA                   795               224              1,019

NEW MEXICO               6,487               570              7,057

  NEVADA                   662                150               812

  OREGON                 3,164               219              3,383

   UTAH                    624               320                944

 WYOMING                 1.068                198             1.266

   TOTAL                27.375              5,419            32.794




                             21
                        United States Department of the Interior
                                    BUREAUOFLANDMANAGEMENT
                                              Wd~ingron.   D.C.   20240
                                                                               In Reply Refer To:

                                                                                1245 (220)
                                               April7, 1998




I                                             MEMORANDUM

    To:            Assistant Inspector Ge/neral of Audits                 n

    Through:       Bob Armstrong
                   Assistant Secretar$&@!%~~&?~
                                          i
    From:          Director, Bureau of Land Management

    Subject:       Response to Draft Audit Report: The Adopt-A-Horse Program, Bureau of Land
                   Management, February 1998 (C-IN-BLM-004-96(C))

    Thank you for the opportunity to respond to the draft audit report on the Adopt-A-Horse
    Program. Our specific responses to your recommendations are attached.

    As discussed in our December 17, 1997, meeting, the Bureau of Land Management (BLM)
    welcomes this report as an important step in revitalizing the agency’s Wild Horse and Burro
    Program. The BLM generally concurs with the report’s recommendations and has already taken
    steps to implement them.

    I would like to emphasize that the BLM’s Wild Horse and Burro Program is in a period of
    transition. In the 198Os, the agency pursued mass adoptions as a means to move large numbers
    of animals off the range. In June of 1992, the BLM adopted a Strategic Plan for the Management
    of Wild Horses and Burros, which signaled a shift in the Bureau’s emphasis to a more careful
    placement policy, stressing humane treatment of animals, adopter compliance, and protection of
    wild herds. The BLM today is concerned with both the health and welfare of animals in the
    adoption program and preserving healthy wild herds and their habitat. Our current policy
    embodies a dramatic change from earlier policies to one that focuses on the welfare of
    individually adopted animals and the free-roaming herds.




                                                      22
                                                                                       AP,UYWlX       >
                                                                                       Page 2 of 5




                                                                                                  2

Last year, as part of this transition, the BLM conducted two intensive, internal reviews of the
program, led by BLM State Directors Al Pierson and Pete Culp. As a followup to the Wild
Horse and Burro Evaluation Report (Pierson Report) and the Wild Horse and Burro Adoption
Program Policy Analysis Team Report (Culp Report), I appointed 3 independent fact-finders to
answer more than 35 questions about the Wild Horse and Burro Program. The questions were
formulated by concerned parties involved with or knowledgeable about the Wild Horse and
Burro Program.

A new Wild Horse and Burro Advisory Board has been chartered and met for the first time in
Reno, Nevada, on February 9- 10, 1998. The nine member committee is composed of individuals
from different constituency groups: three with strong science backgrounds, three from different
advocacy groups, and three representing the public at large. The feedback from the meeting has
been positive and has laid the groundwork for providing meaningful recommendations to the
BLM on important program issues, At the Advisory Board meeting, the fact-finders presented
their recommendations to improve the management of the Wild Horse and Burro Program.

With guidance from the three independent fact-finders, the reestablished Wild Horse and Burro
Advisory Board, the Inspector General’s recommendations, and the two internal BLM reports,
we will be able to resolve recurring problems and give the Wild Horse and Burro Program new
direction.

Questions to our responses may be addressed to Bud C. Cribley, BLM Wild Horse and Burro
Specialist, at 202-452-5073 or Gwen Midget-t, BLM Audit Liaison Officer, at 202-452-7739.




Attachment




                                            23
                                                                                  APPEJDIX 5
                                                                                  Page 3 of 5


                           RESPONSE TO DRAFT AUDIT REPORT
                             THE ADOPT-A-HORSE PROGRAM
                            BUREAU OF LAND MANAGEMENT
                                       FEBRUARY 1998
                              (Report No. C-IN-BLM-004-96(C))


Recommendation 1; Procedures are established to conduct regular oversight reviews of field
offices to determine whether screening, pre-adoption and post adoption inspections, and titling
procedures are complied with. The reviews should determine whether the Bureau’s screening
and inspection procedures provide reasonable assurance that wild horses and burros in the
Adopt-A-Horse Program receive humane care.

Concur: Through the Culp Report, the Bureau of Land Management (BLM) identified a need to
conduct assistance visits to every BLM state involved in the Wild Horse and Burro Program
(WH&B) on a 4- to 5 year cycle to provide improved consistency in national program
implementation. Subsequent to that report and considering the recommendation from this draft
report, the BLM has decided to conduct formal program reviews of all BLM state WH&B
Programs to determine compliance with screening requirements, pre-adoption and post-adoption
inspections, and titling procedures.

A memorandum will be issued from the BLM Washington Office defining the schedule for the
Wild Horse and Burro Program review. We have committed to conducting program reviews in
all BLM states by the year 2000. In Fiscal Year 1998, BLM will review programs in California,
Idaho, and New Mexico.

Recommendation 2: The Wild Horse and Burro Information System (WHBIS) contains
information on violators of wild horse and burro laws and regulations and other problem adopters
to be used as a screening tool when offices evaluate prospective adopters. Additionally, the
Information System should be evaluated and redesigned, as appropriate, to be more “user
friendly” to Program personnel.

Concur: Over the past 18 months, the BLM has evaluated the WHBIS and redesigned it to be
more “user friendly” to Wild Horse and Burro Program personnel. This will make the data base a
more complete and effective tool for screening adopters and securing compliance and humane
care. On January 5, 1998, the WHBIS data base was moved to a new computer platform,
increasing reliability and making the system more accessible to field users. A new compliance
module of the WHBIS data base is scheduled to be functional by June 1998; at that time,
program specialists will be able to use the data base as a screening tool for compliance
violations. The second phase modification, which will enable us to pull preprogrammed reports
from the data base, will be in place by August 1998.




                                              24
                                                                                 APPEXDIX 5
                                                                                 Page 4 of 5




                                                                                                     2
Recommendation 3; Revise the Bureau’s strategic plan for the Management of Wild Horsesand
Burros to require a higher percentage of inspections to be performed, as recommended by the
Bureau’s “Policy Analysis Team Report.” Also, the number of inspections performed should be
accurately recorded in the Information System and reported to Bureau of Land Management.

Concur In Part: The BLM has adopted the recommendations of the “Policy Analysis Team
Report” regarding the level of compliance checks to be performed on an annual basis. As a result
of the internal reviews, the BLM identified the need to improve compliance and recommended a
statistical sampling approach as the best means to ensure the health and humane treatment of
95 percent of animals adopted within the past 5 years. This statistical approach will require the
BLM to conduct a sufficient number of compliance checks to provide a 95 percent confidence
level in the conclusions. The BLM will perform more than 3,629 compliance inspections in
FY 1998, as identified in the BLM’s Annual Work Plan.

To further ensure the health and humane treatment of the adopted, but not yet titled, animals, the
BLM will also:

l      Telephone or physically check 100 percent of all new adoptions within 6 months after
       adoption. This will require 8,000 to 10,000 adopter contacts per year.

.      Contact, by certified mailing, all adopters for the last 5 years who have animals eligible
       for title, but who have not yet titled those animals. Letters were mailed to 3,028 adopters
       at the end of January 1998. The BLM is in the process of following up on the responses.

l      Continue the policy of 100 percent inspections on all complaints received.

The information collected in these efforts is required to be accurately entered into the WI-IBIS
data base. The BLM will mn reports of the records in the data base to verify that inspections are
being completed and recorded as required.

Recommendation 4: Procedures are established which require records to be maintained on the
complaints received of animal abuse or exploitation, the actions taken and the final results of
those actions.

Concur: With the completion of the compliance module of the WI-IBIS data base (June 1998),
the BLM will require that records of complaints of animal abuse or exploitation be entered into
the national WI-IBIS data base and maintained along with records of actions taken and the effect
of the actions on eligibility for future adoptions. Records of abuse or other violation will be
immediately available to all field offices for their use in checking applications to adopt wild
horses or burros. The procedures for requiring and accomplishing this task are included in the
handbook on Compliance Handbook for Wild Horses and Burros which is currently being
updated for review by the BLM’s Headquarters staff and the Solicitor’s Office.



                                                 25
                                                                                       APPENDIX 5
I                                                                                      Page 5 of 5




                     on 5: Procedures are established to require all offices to contact adopters who
    have not submitted title applications in a timely manner and to take appropriate follow up actions
    to issue titles. Further, consideration should be given to implementing, on a Bureau wide basis,
    other effective procedures and memorandums of understanding with slaughterhouses that have
    been established in some offices.

    Concur: It is the policy of the BLM that, as soon as the animal is eligible for titling and its health
    and proper care have been certified, title will be issued. The BLM sends a certified letter to
    adopters who have not applied for title to their animal by 15 months after the adoption date. If
    the adopter does not respond, BLM will follow up with a site visit to determine the reason, verify
    the health of the animal, and issue the title if appropriate.

    The Culp Report also recommended that the BLM attempt to contact by mail the adopters of all
    animals that have not been titled over the 20-year life of the adoption program, in an effort to
    convey title to all eligible adopters. We believe that this would be a costly endeavor without
    corresponding benefit. Instead, we are contacting the people who have adopted, but not taken
    title to, horses or burros since October 1, 1992, to determine the status of those animals and
    convey titles where appropriate. We then plan to turn our attention to newly adopted animals,
    having established a new line of demarcation for the BLM’s compliance efforts.

    On February 4, 1998, the BLM issued Instruction Memorandum No. 98-59 to all affected field
    offices instructing them to contact all slaughterhouses that process horses for human
    consumption with the intent of entering into memoranda of understanding (MOU). These MOI Js
    will establish monitoring procedures to ensure that untitled animals are not slaughtered. The
    field offices have contacted eight known processing plants. We have signed MOUs with three
    plants; we are working on MOUs with three plants; and, we have determined that two plants no
    longer process horses.

    The BLM is also negotiating a cooperative agreement with the Department of Agriculture’s Food
    Safety and Inspection Service (FSIS) to use FSIS inspectors to help determine the presence of
    untitled wild horses at slaughterhouses that process horses for human consumption.




                                                        26
                                                       APPENDIX 6




       STATUS OF AUDIT REPORT RECOMMENDATIONS
Finding/Recommendation
        Reference                                   Action Requ’ ed
       1, 2, 3, and 4    Resolved; not   No further response to%e Office of
                         implemented.    Inspector General is required. The
                                         recommendations will be referred to
                                         the Assistant Secretary for Policy,
                                         Management and Budget for tracking
                                         of implementation.

                         Implemented.    No further response to the Office of
                                         Inspector General is required.




                                   27
                 ILLEGAL OR WASTEFUL ACTIVITIES
                     SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents     to:                                Calling:



                    Within the Continental United States

U.S. Department of the Interior                            Our 24-hour
Office of Inspector General                                Telephone HOTLINE
1849 C Street, N.W.                                        l-800-424-5081 or
Mail Stop 5341                                             (202) 208-5300
Washington, D.C. 20240


                                                           TDD for hearing impaired
                                                           (202) 208-2420 or
                                                           l-800-354-0996



                    Outside the Continental United States
                                                       : .~ -.

                                     Caribbean   Retion

U.S. Department of the Interior                            (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                    North Pacific Reeion

U.S. Department of the Interior                            (700) 550-7428 or
Office of Inspector General                                COMM g-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toil Free Numbers:
 1-800-424-5081
 TDD l-800-354-0996

FTS/Coriunercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420



1849 C Street, N.W.
Mail Stop 5341
Washing
